WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

20-6520

Paul Viriyapanthu

State of California, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Orange County Bar Association

0 I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar nsub
, er.
Signature
Date.

December 3, 20 0

(Type or print) Name

Suzanne Burke Spencer
0 Mr. 0 Ms. 0 Mrs. 0 Miss

Firm

Sall Spencer Callas & Krueger, ALC

Address

32351 Coast Highway

City & State

Laguna Beach, CA

Phone 949-499-2943

Zip
Email

92651

sspencer@sallspencer.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Paul Viriyapanthu (in pro per); Marc A. Shapp (for the State Bar); Joel A. Davis (for the State of
California); Mark Schaffer (for John Nelson); and Richard Green (in pro per)

